                           WHITE PAPER




Enhancing Mail for Digital Natives
November 18, 2013




                     Report Number: RARC-WP-14-001
RARC-WP-14-001                                                              Enhancing Mail for Digital Natives




                                                            EXECUTIVE SUMMARY

                Enhancing Mail for Digital Natives
Digital Natives, who are generally born
                                                                      Highlights
after 1980, are now the largest
generational group in the United States.              Digital Natives, born and raised in the
For this growing part of the population,              age of the Internet, are now the largest
communicating and conducting                          segment of the U.S. population.
transactions and leisure activities online is
an integral part of everyday life.                    Digital Natives still see value in mail but
                                                      have very low tolerance for receiving
As Digital Natives move into their peak               advertisements not directly relevant to
earning years, they will become the                   them.
nation’s dominant consumer group. It
becomes increasingly important for the                Parcels drive Digital Natives’ interest in
                                                      mail and are the new mainstay to the
Postal Service and members of the mailing
                                                      mail.
community to understand their unique
communications expectations and needs.                Digital Natives responded positively to
The postal industry cannot afford to ignore           well-designed mailpieces and interactive
this demographic.                                     features and expected the content to be
                                                      relevant to their needs and interests.
The U.S. Postal Service Office of Inspector
General commissioned two focus groups of Digital Natives, aged 16–25, to gauge their
current uses and perceptions of the mail, as well as their reactions to digitally interactive
and well-designed mailpieces. The results of this project are based on these focus
groups and secondary research. Although the results cannot be generalized, they shed
some light on how the Postal Service and its stakeholders can enhance the value of
mail for Digital Natives.

Key Findings about Digital Natives and the Mail
          Mail still matters to Digital Natives. Although they rely primarily on digital
           communications, the emotional connection and utility provided by physical mail
           generates a strong attachment. Moreover, Digital Natives said they feel that the
           Postal Service, as an institution, is important and that its disappearance would
           affect them adversely.

          Parcels drive Digital Natives’ interest in and anticipation of mail. The
           possibility of receiving a parcel compels Digital Natives to check for and look at
           the mail they receive, replacing periodicals as the new mainstay to the mail. Their

U.S. Postal Service Office of Inspector General                                           November 18, 2013
                                                  i
RARC-WP-14-001                                                           Enhancing Mail for Digital Natives



           increased interest in receiving parcels leads them to look more often at all the
           other mailpieces they receive. Parcels matter most, as they are now a primary
           driver of the Mail Moment for Digital Natives.

          In the tradeoff between privacy and convenience, convenience wins.
           Despite their stated privacy concerns, Digital Natives revealed that the ease of a
           one-click purchase experience, which requires users to store personal
           information online, is more important than privacy. The ease of one-click
           purchase experiences helps facilitate more e-commerce transactions, which can
           lead to more parcels.

          Digital Natives responded positively to interactive and well-designed
           mailpieces. Digital Natives were interested in mailpieces enhanced with
           characteristics like color, high quality paper, and unique shapes, as well as mail
           that integrates interactive digital features, like augmented reality.

          Mail must be easy to use, relevant, and beneficial to prompt recipient
           action. The effectiveness of a mailpiece innovation depends on the user’s ability
           to operate the digital features easily and quickly, without having to download new
           programs. Although the novelty of the innovative mailpiece may initially attract a
           wide range of Digital Natives, the content of the advertisement must be relevant
           to their needs to make a lasting impact. The mailpiece’s digital feature must
           provide some sort of utility, such as providing additional information or allowing
           them to buy an item.

          Digital Natives responded well to physical-digital integration. Digital Natives
           are more likely to take notice of communications that present similar messages
           about the same information over different mediums. This type of multi-channel
           communication leverages the specific advantages of each channel to create a
           seamless user experience. Digital Natives found mailpieces with digital features
           more informative, efficient, and useful than mailpieces without them.

Implications for the Postal Service
The value of mail for Digital Natives could be enhanced through greater innovation in
mailpieces — both by design and by incorporating interactive digital features. Digital
Natives in the focus groups indicated they become frustrated when mail is not tailored
or relevant to them, but said they would enjoy the ability to receive more information
about a product using a tablet or phone if they so wished. The postal industry must
listen to Digital Natives to make the mail more valuable for them. If the value of mail
rises, marketers would use the mail channel more to communicate their message,
increasing its volume. The Postal Service could help encourage mailers' use of such
innovative designs and digitally interactive mailpieces through additional promotions or
discount pricing, which it has already begun providing. Additionally, parcels drive Digital
Natives' overall interest in the mail, raising the value of mail. The Postal Service could
also capitalize on parcel ancillary services, such as flexible delivery, as the parcel
market will continue to grow in size and importance.


U.S. Postal Service Office of Inspector General                                        November 18, 2013
                                                  ii
RARC-WP-14-001                                                                                         Enhancing Mail for Digital Natives



                                                  Table of Contents
Introduction ..................................................................................................................... 1

Background ..................................................................................................................... 1
     Methodology .............................................................................................................. 4

Key Findings about Digital Natives and Mail ................................................................... 4
     Mail Still Matters......................................................................................................... 4
     Parcels Drive Digital Natives’ Interest in and Anticipation of
     Physical Mail. ............................................................................................................. 7
     In the Tradeoff Between Privacy and Convenience, Convenience
     Wins. .......................................................................................................................... 8
     Digital Natives Responded Positively to Interactive and Well-
     Designed Mailpieces. ............................................................................................... 10
     Mail Must be Relevant, Easy to Use, and Beneficial to Prompt
     Recipient Action. ...................................................................................................... 13
     Digital Natives Responded Well to Physical-Digital Integration. .............................. 14

Implications for the Postal Service ................................................................................ 14
     The Postal Service Could Provide a Neutral Platform that
     Facilitates Access to New Technologies for Both Mail Senders and
     Recipients. ............................................................................................................... 15
     Parcels Are the New Mainstay to the Mail, as They Are Now a
     Primary Driver of the “Mail Moment.” ....................................................................... 15
     The Postal Service Could Conduct Additional Research on Mail’s
     Effectiveness and Expand Outreach to Parties Not Traditionally
     Considered Postal Stakeholders. ............................................................................. 16

Conclusion .................................................................................................................... 17

                                                    Appendices
Appendix A              Focus Group Methodology .................................................................... 18

Appendix B              Participant Surveys ............................................................................... 19




U.S. Postal Service Office of Inspector General                                                                      November 18, 2013
                                                                  iii
RARC-WP-14-001                                                                                   Enhancing Mail for Digital Natives




                                                        Tables
Table 1: Digital Natives v. Digital Immigrants .................................................................. 2

Table 2: Use of Technology, Millennials v. Older Americans .......................................... 4

Table 3: Prescreening and Pre–Focus Group Questions for Digital Natives ................. 19

Table 4: Further Prescreening and Pre–Focus Group Questions for Digital
        Natives ............................................................................................................. 21

                                                       Figures
Figure 1: Emotional Connections to Mail ......................................................................... 5

Figure 2: Some Innovatively Designed Mailpieces Shared During Focus Groups ........ 11

Figure 3: Example of Augmented Reality Application with a Magazine ......................... 12




U.S. Postal Service Office of Inspector General                                                                November 18, 2013
                                                              iv
RARC-WP-14-001                                                                                Enhancing Mail for Digital Natives




                Enhancing Mail for Digital Natives

Introduction
Digital technologies and e-commerce have transformed the way people communicate,
collect information, make purchases, and conduct business. This creates both
challenges and opportunities for the Postal Service and other postal stakeholders. The
decline in transactional mail, like bills and personal correspondence, primarily due to
online alternatives, has driven a decline in First Class Mail that is expected to continue
into the foreseeable future. 1 Technological advances are driving online and mobile
marketing, which create more competition for Standard Mail, while the range of
immediately available online resources, including news sources, blogs and eTailers, is
leading to a steady decline in periodicals mail. 2 Yet the explosion in e-commerce is
driving up the parcels business and creating a growing source of revenue for the Postal
Service. 3

As described above, these technological developments affect our communication
habits. This is especially true for Digital Natives, who have grown up in a world where
communicating and conducting transactions and leisure activities on the Internet is an
integral part of everyday life. 4 This group currently spans multiple generations, but is
dominated by Millennials, generally born between 1980 and 2000. The Millennial
generation is currently the largest generational group in America, even outnumbering
Baby Boomers.

Digital Natives will soon move into their peak earning years, thereby driving the U.S.
economy. Consequently, it is important for postal stakeholders to pay attention to the
communications wants and needs of this segment of customers. Postal stakeholders
can benefit from examining Digital Natives’ current perceptions and uses of the mail to
develop better ways to meet those wants and needs, both now and in the future.

This paper provides information about Digital Natives’ current perceptions of the mail
and their reactions to efforts to enhance its utility and effectiveness.

Background
The Postal Service — and the entire mailing industry — are shaped by the wants and
needs of multiple segments of customers. Different segments of the population use the
Postal Service in different ways and find value in different types of mail. Exploring the

1
  U.S. Postal Service, “Annual Report to Congress 2012,” p. 22.
2
  Ibid.
3
  U.S. Postal Service, “Annual Report to Congress 2012,” p. 21.
4
  This definition is in line with Marc Prensky, “Digital Natives, Digital Immigrants, Part I,” MCB University Press, Vol. 9,
No. 5, http://marcprensky.com/writing/Prensky%20-%20Digital%20Natives,%20Digital%20Immigrants%20-
%20Part1.pdf, p.1.



U.S. Postal Service Office of Inspector General                                                             November 18, 2013
                                                             1
RARC-WP-14-001                                                                         Enhancing Mail for Digital Natives



evolving needs of various generations allows the Postal Service to adjust its business
offerings to remain relevant and useful.

As the influence of Digital Natives’ unique expectations grows, the Postal Service will
need to make adjustments to its platform and operations in order to remain relevant to
them. Ultimately, enhancing the value of mail for Digital Natives will benefit all members
of the postal value chain — mailers, marketers, printers, distributors, and so forth — and
could further increase the volume of mail.

Digital Natives can be distinguished from Digital Immigrants, older users who, as the
name suggests, were born at a time when technology was not prevalent but have since
adopted many aspects of new technologies. Digital Immigrants retain an “accent” that
shapes the way they use technology. This group is more likely to print an email, call to
make sure a message sent over the Internet went through, and think of the Internet as a
resource only after exploring their hard copy options. As mentioned, Digital Natives are
primarily Millennials but also include the younger Generation Z, born after 2000.
Research shows that Digital Natives are more likely than Digital Immigrants to
communicate through technology. 5 The following table provides some generalizations
about differences between Digital Natives and Digital Immigrants. 6

                                    Table 1: Digital Natives v. Digital Immigrants
Quality                                           Digital Natives             Digital Immigrants
Age                                               Born after 1980             Born before 1980
                                                     • Millennials               • Generation X
                                                     • Generation Z              • Baby Boomers
                                                                                 • Silent Generation
                                                                                 • Greatest Generation
Technology use                                    Rely on technology for      Adopt new technology as
                                                  communication and           necessary
                                                  transactions
Product Reviews                                   Come from friends, peer     Come from experts,
                                                  reviews, and social media   advertisements
                                                  outlets
Social Networking                                 75 percent adoption rate    Less than 50 percent have
Presence                                                                      profiles



5
  Ibid., and Paul Taylor and Scott Keeter, “Millennials: Confident. Connected. Open to Change,” Pew Research
Center, Feb. 2010, http://www.pewsocialtrends.org/files/2010/10/millennials-confident-connected-open-to-change.pdf
pp. 6, 25-27.
6
  The chart is an OIG Analysis of Paul Taylor & Scott Keeter, “Millennials: Confident. Connected. Open to Change.,”
Pew Research Center, Feb. 2010, http://www.pewsocialtrends.org/files/2010/10/millennials-confident-connected-
open-to-change.pdf, and Barton, et al., “Millennial Passions: Food, Fashion and Friends,” Boston Consulting Group,
Nov. 2012, http://www.bcg.com/documents/file121010.pdf. Social Networking Presence refers to the creation of a
profile on at least one social networking website.



U.S. Postal Service Office of Inspector General                                                      November 18, 2013
                                                               2
RARC-WP-14-001                                                                           Enhancing Mail for Digital Natives



The Digital Native demographic has several key attributes that, while not unique,
provide a useful starting point. Digital Natives tend to:

          Always be online and networked, expecting regular and immediate feedback, 7

          Rely on user reviews, rather than corporate marketing or expert reports, when
           making purchases, 8

          Use technology more often than older generations to connect with people, 9

          Be much more likely than older generations to connect to the Internet wirelessly
           when away from home and work, 10

          Be more likely to rely on only a cell phone for their communication needs, and
           more likely than older generations to communicate through texting, 11

          Be more educated than previous generations were at the same age, 12 and

          Learn well through digital games and experiences. 13

The recession led Baby Boomers to work past the traditional retirement-age, which
delayed some Digital Natives' ability to enter and progress in the workforce. 14 While
Digital Natives' economic growth was stunted temporarily, this group is now becoming
more financially self-sufficient, as Baby Boomers are beginning to retire in larger
numbers. With Digital Natives moving into their peak spending years, they are gaining
more economic power. 15

The emergence of a new generation dominating the marketplace creates a significant
opportunity for many organizations, including retailers and the Postal Service. But, it
requires a readjustment of outreach to best communicate with this group. The Postal
Service should focus on understanding and meeting Digital Natives’ needs and
expectations so that this group develops an understanding and appreciation for physical
mail. As the table below demonstrates, younger generations, including Millennials and
Generation Xers, use technology more to communicate than older generations, such as
Baby Boomers (ages 46–64) and the Silent Generation (over age 65). Introducing mail


7
  Marc Prensky, “Digital Natives, Digital Immigrants, Part I,” p. 2.
8
  Christine Barton, et al., “The Millennial Consumer: Debunking Stereotypes,” Boston Consulting Group, April 2012, p.
6.
9
  Taylor & Keeter, “Millennials: Confident. Connected. Open to Change.,” p. 25.
10
   Ibid., p. 31.
11
   Ibid., pp. 32-33.
12
   Ibid., p. 10
13
   Marc Prensky, “Digital Natives, Digital Immigrants, Part II,” NCB University Press, Vol. 9, No. 6, December 2001,
http://marcprensky.com/writing/Prensky%20-%20Digital%20Natives,%20Digital%20Immigrants%20-%20Part2.pdf,
p. 4.
14
   Kelly Greene, “Baby Boomers Delay Retirement: Declines in Assets Forces a Generation to Face New Reality,”
Wall Street Journal, September 22, 2008, and Barton, et al., “The Millennial Consumer: Debunking Stereotypes,” p. 3.
15
   Barton, et al., “The Millennial Consumer: Debunking Stereotypes,” p. 3.



U.S. Postal Service Office of Inspector General                                                        November 18, 2013
                                                         3
RARC-WP-14-001                                                              Enhancing Mail for Digital Natives



and responding to Digital Natives’ wants and needs for the mail medium could help the
Postal Service establish itself with this population.

                        Table 2: Use of Technology, Millennials v. Older Americans




                           Source: Pew Research Center, February 2010.

Methodology
As part of its efforts to understand different groups of postal customers, the Postal
Service Office of Inspector General (OIG) commissioned decision/analysis partners
LLC, a postal consulting firm, to help study Digital Natives’ use of the mail. Specifically,
the OIG worked with decision/analysis partners to conduct two focus groups to
understand (1) Digital Natives' current perceptions and uses of physical mail and (2)
how their perceptions and uses of physical mail could be affected by well-designed and
digitally interactive mailpieces.

To achieve these objectives, the moderator shared with focus group participants
examples of mailpieces that had enhanced features, including those with unique sizes,
shapes, and colors, as well as those with interactive digital features. Appendix A
provides additional detail about the focus group methodology. The focus groups were
comprised of Digital Natives between the ages of 16 and 25. Appendix B provides more
information about the focus group participants.

This paper summarizes the major findings from the focus groups’ discussions, and it
suggests how the postal industry can use this information to better promote mail to
Digital Natives.

Key Findings about Digital Natives and Mail
Mail Still Matters.
Although Digital Natives primarily rely on digital communications, physical mail still
resonates with them because it provides a strong emotional connection and utility.
Moreover, focus group participants indicated they feel the Postal Service, as an

U.S. Postal Service Office of Inspector General                                           November 18, 2013
                                                           4
RARC-WP-14-001                                                                         Enhancing Mail for Digital Natives



institution, is important, and that they would be affected adversely if it disappeared in
five years.

Emotional Appeal of Mail
Digital Natives indicated that they value receiving hard copy mail, and most stated that
they both need and want physical mail. Digital Natives' appreciation of the emotional
                                                     power of mail is supported by
                                                     previous research.
        Figure 1: Emotional Connections to Mail
                                                                   Many studies demonstrate the
                                                                   emotional connection or reaction
                                                                   people have to physical mail. For
                                                                   example, the Postal Service has
                                                                   commissioned studies evaluating
                                                                   the “Mail Moment,” the daily ritual of
                                                                   consumers bringing in their mail and
                                                                   discovering what it offers. 16 In fact,
                                                                   the Mail Moment study reported that
                                                                   56 percent of respondents said that
                                                                   receiving mail is a “real pleasure,”
                                                                   55 percent “look forward” to
     The red areas represent greater oxygenated blood flow
     (and hence activation) stimulated by physical
                                                                   discovering the mail they receive,
     advertisements. The blue areas are regions activated          and 67 percent feel mail is more
     more by virtual advertisements.                               personal than the Internet. 17
     Source: “Using Neuroscience to Understand the Role of
              Direct Mail,” Millward-Brown, p. 2, 2009.
                                                      Physical mail creates an impression
                                                      on recipients of all ages, as well.
Neurological research by global market research firm Millward Brown demonstrates that
the brain has a stronger physical reaction to hard copy mail than the same information
presented electronically. 18 The research, commissioned by Royal Mail, shows that
physical material “leaves a greater footprint” on the brain because it has a meaning and
a place. 19 The study also found that physical material involves more emotional
processing, which is also important for memory and brand associations.

The results of the focus groups in this project show that,
from a sentimental standpoint, Digital Natives appreciate                      Research shows that
receiving personal mail, such as cards and letters, as                         physical mail creates a
well as relevant information, such as brochures and                            stronger reaction in the
reminders from colleges. A few participants voiced that                        brain than electronic
personal notes sent a stronger message than writing an                         messages.
email or sending a text message. Digital Natives do not
16
   The Mail Moment, available at
http://www.pb.com/docs/US/pdf/Microsite/Nonprofit/ed_np_getyourmailopened_05MailMoment.pdf.
17
   United States Postal Service, The Mail Moment, 2005, http://fnbr.com/resources/usps/pdfs/mailmoment.pdf.
18
   “Using Neuroscience to Understand the Role of Direct Mail,” Millward-Brown, 2009, p. 2.
19
   Ibid.



U.S. Postal Service Office of Inspector General                                                      November 18, 2013
                                                             5
RARC-WP-14-001                                                          Enhancing Mail for Digital Natives



rely on the mail for most of their information, but they do have a stronger reaction to
messages sent in hard copy. While participants held that the spam in their inboxes
overwhelmed them, almost all participants still checked their physical mailbox daily.

Utility of Mail
Many of the Digital Natives in the focus groups thought that mail was most useful when
receiving correspondence or packages they had requested. Digital Natives agreed that
when they were expecting something in the mail, they were much more likely to check it
daily. They were also more likely to open anything personalized.

While Digital Natives complete many transactions digitally, such as paying bills and
banking online, the focus group participants all mentioned certain types of physical mail
they find useful. One participant said that if he does not check his email for a few days,
                                 he will have many messages to go through, most of
  Digital Natives appreciate
                                 them spam. He said of email, “I guess there was a point
  when they receive              in time where I stopped reading . . . and just scrolled
  important information in       through.” By contrast, he goes through each piece of
  both electronic and hard       physical mail to decide whether to keep it. Another
  copy.                          participant agreed, saying the Internet can overwhelm
                                 her with advertisements.

Digital Natives agreed that receiving duplicative email and physical mail was important
for time-sensitive communications. Some used the example of letters from colleges
about upcoming events. They might read the email, but some Digital Natives said an
event probably would not go on their calendar unless they received a hard copy
reminder. Other Digital Natives saw value in bill statements sent through both the mail
and email. A few Digital Natives said that the only type of mail they keep is billing
statements.

Furthermore, coupons still have the ability to drive many Digital Natives to act. More
than half of participants said they used and appreciated coupons they received in the
mail. For example:

          A few said they were especially likely to use fast food coupons,

          Another said she had received a discount in the mail that prompted her to buy a
           car,

          A couple of Digital Natives said they appreciated when the coupons arrived in
           hard copy but could be scanned into their phone so they did not have to bring in
           the physical coupon.

Connection to the Institution of the Postal Service
Digital Natives have grown accustomed to the mail as a main channel of
communication, which they depend on for certain information. Focus group participants
unanimously agreed that if the Postal Service stopped operating, they would miss it.


U.S. Postal Service Office of Inspector General                                       November 18, 2013
                                                  6
RARC-WP-14-001                                                                      Enhancing Mail for Digital Natives



Specifically, they said they would miss parcel delivery, the public service of mail, and
the ability to communicate other than through digital technology.

Digital Natives said the hardest part about not having a Postal Service would be losing
the ability to receive packages, and some were concerned about how they would
receive magazines. This could mean that they were unaware of other carrier
companies, that they only rely on the Postal Service for parcel delivery and shipping, or
that they appreciate the competition between parcel delivery carriers.

Digital Natives also discussed their reliance on receiving mail in spite of an increasing
use of the Internet. One pointed out that she had “grown accustomed to getting mail,”
and that it would feel “odd” not to receive it. Two other focus group participants said
they need the Postal Service because physical mail still serves as a way they
communicate. Some Digital Natives also brought up concern about people without
Internet access and their communication needs. Twenty percent of Americans do not
have access to the Internet, and elimination of the Postal Service would severely limit
their ability to communicate. 20

Moreover, Digital Natives still worried about the Internet and electricity going out,
leaving them with no way to communicate. One worried that the Internet infrastructure
was too fragile to be the only source of communication. Many Digital Natives agreed
with this sentiment, concluding that physical mail was more dependable than online
correspondence.

Most participants voiced strong concerns about adapting to a life without the Postal
Service, and many also worried about the number of Americans who would lose their
jobs if it were to close.

Parcels Drive Digital Natives’ Interest in and Anticipation of Physical
Mail.
Participants in both focus groups did not differentiate between letter mail and packages
when discussing the role of the Postal Service and mail in their lives. The growth of the
Postal Service's shipping business also reflects the increasing interest in parcels, with
its parcel business growing more than 14 percent over the last two years. 21 Parcels are
becoming an important aspect of the Postal Service's business, not only because of the
revenue they generate, but also because they can drive customers to value the mail
more. Customers checking the mail — even if motivated by anticipation of personal mail
or parcels — can help drive volume. The more time people spend with their mail, the
more likely it is to make them act, and that makes mail a strong choice of channels for
senders — especially advertisers.



20
   “Fact of the Day # 94: Twenty Percent of American Households Don’t Have Internet Access,” Huffington Post,
October 31, 2012, http://www.huffingtonpost.com/2012/10/31/internet-access-american-households_n_2049123.html.
21
   “Fact Sheet: Improved Priority Mail,” United States Postal Service, August 1, 2013, p.2.



U.S. Postal Service Office of Inspector General                                                   November 18, 2013
                                                      7
RARC-WP-14-001                                                                           Enhancing Mail for Digital Natives



Digital Natives’ passion about their parcels creates a unique
opportunity for marketers, who can strategically use parcels,     For Digital Natives,
such as samples, to generate additional anticipation and          parcels drive the
excitement about checking the mail, potentially driving up        Mail Moment.
visibility and value of other mailpieces. Additionally, samples
have the potential to get customers to buy a product. During the course of the focus
groups, Digital Natives expressed interest in receiving more free things in the mail in the
next five years.

Some brand marketers consider samples as “the single most effective marketing tool
there is.”22 The Postal Service has recognized this opportunity and offered a promotion
giving sample mailers a 5 percent discount on qualifying Standard Mail and Nonprofit
Marketing Parcels shipped between August 1 and September 30, 2013. This was the
largest discount, by percentage, the Postal Service planned to offer in 2013.

Sample subscription companies have also popped up around the strong marketer and
consumer interest in monthly sample boxes. These businesses send a box of “surprise”
samples once monthly, and then offer full sizes of the products for sale on their website.
One company reports that it now has more than 400,000 subscribers, half of whom
have made full-size purchases online after receiving the sample. 23 Some of these
samples report an 11 percent conversion rate, about ten times the industry standard. 24

Samples are also effective in generating interest and sales through word of mouth.
Digital Natives are more likely to rely on the opinions of those around them and online
consumer reviews than professional review websites. 25 Samples enhance this drive to
share with others, as users are more likely to share their experience. As an example,
one subscription sample company reports that 15 percent of all full-size product sales
on their website come from people who have not subscribed to receive the monthly
sample box. 26

Parcels can help generate more interest in physical mail, especially among Digital
Natives. Using this knowledge, marketers can reach their audience and inspire a new
excitement about advertising pieces.

In the Tradeoff Between Privacy and Convenience, Convenience
Wins.
Although focus group participants stated concerns about protecting their privacy, they
revealed that the ease of a one-click purchase trumps privacy when they want to act.

22
   Sabri Ben-Achour, “U.S. Postal Service gets creative with samples discount program,” Marketplace, August 2013.
23
   Kim-Mai Cutler, “Birchbox Says its Subscription Model is Working, With 25% of Revenues Coming From E-
Commerce Store,” Techcrunch, August 15, 2013.
24
   Meghan Casserly, “Birchbox Proves Try and Buy: Half of All Subscribers Make Full-Size Purchases,” Forbes,
August 15, 2013.
25
   Christine Barton, et al., “The Millennial Consumer: Debunking Stereotypes,” Boston Consulting Group, April 2012,
p. 6.
26
   Ibid, and “Birchbox,” Birchbox, www.birchbox.com.



U.S. Postal Service Office of Inspector General                                                        November 18, 2013
                                                         8
RARC-WP-14-001                                                                        Enhancing Mail for Digital Natives



Interestingly, focus group participants voiced a clear concern about protecting their
privacy. They openly worried about the personal and financial information they keep
online.

Focus group participants also wondered how advertisers got their names and
addresses. Many Digital Natives especially worried about whom their address was
                                  provided to when they received physical mail that was
  “I don’t know where             not tailored to their needs and interests. The
  [advertisements] come           participants also worried about how much information
  from. I didn’t sign up for      advertisers had about their home addresses, but did not
  this.”                          express similar concerns about tailored Internet
                                  advertisements. The discrepancy could be because of
the amount of information Digital Natives reveal on social media and networking
websites about themselves in exchange for the service. Digital Natives are comfortable
controlling their online privacy settings so viewers can only see a certain amount of
information. They do not seem to have much concern for the information they are
providing to the social network provider and what effect it has on their privacy. 27 This
expectation of targeted advertisements may be an outgrowth of the well-tailored
advertisements Digital Natives receive online based on past purchases, searches, and
declared interests.

Focus group participants had varying perceptions of the role of government in protecting
privacy. Many voiced concern about how much information the government already had
about them. Some Digital Natives expressed the belief that the government had access
to their Internet activity, including email and web browsing. 28 A few Digital Natives were
concerned about downloading an app from the government for fear that would enable
the government to gather more information about them.

After Digital Natives expressed their privacy concerns, all admitted to using online
shopping and voiced no concern about giving their information to a retailer to complete
a transaction. All but one participant expressed interest in the ability to scan part of an
advertisement and immediately be able to purchase the product. They appreciated
quick online shopping experiences where much of their information was automatically
filled out.

Participants put a lot of emphasis on the ease of the buying experience. The fewer
steps it took to go from seeing a product to owning it, the more likely they would be
willing to purchase the item. For example, many focus group participants said that
regular catalogs were not enough to push them to purchase an item because they
require the shopper either to go to the store, find the product, and make a purchase, or
go online, locate, and buy the product. If the second step was minimized by the ability to
scan and immediately purchase an item without having to enter personal shipping and


27
  “How teens, parents struggle to share social media,” Fox2now St. Louis, September 2, 2013.
28
  The National Security Administration information leaks by Edward Snowden had broken a few days prior to the
focus group, which may have had an effect on some respondents’ trust in government.



U.S. Postal Service Office of Inspector General                                                     November 18, 2013
                                                        9
RARC-WP-14-001                                                                              Enhancing Mail for Digital Natives



payment information, Digital Natives expressed that they would be more interested in
buying the product.

In spite of stated privacy concerns, researchers have characterized Millennials, which
include Digital Natives, as the most willing-to-share generation. 29 One study shows that
Digital Natives are very receptive to an information tradeoff, where they provide a
company with more personal information online in exchange for an exclusive coupon or
relevant advertising. 30

While Digital Natives state that they worry about privacy and protecting their personal
information, their actions reveal a different priority. Digital Natives are very interested in
fast, personalized buying experiences and expect personalized advertisements.

Digital Natives Responded Positively to Interactive and Well-Designed Mailpieces.
Digital Natives generally liked mailpieces with features such as multiple colors, high
quality paper, and unique shapes, as well as mail that integrated interactive, digital
features, such as augmented reality and virtual experiences.

Dimensional Mail
Digital Natives responded positively to mail that incorporated unique or eye-catching
features. The focus group moderator showed Digital
                                                              “The better designed [mail]
Natives sample mailpieces printed on thick cardstock or
                                                              is, to me, tells me that
thin, translucent plastic. (See Figure 2). The mailpieces     they’re a better company.”
also featured bright colors, pop-outs, stickers, cut-outs,
and holograms.

Initial reactions elicited responses like, “I would definitely look at [this];” “I never got mail
like this before;” and “3D mail is cool.” Out of 14 participants, only one said she
preferred regular mailpieces because she wanted mail “small and neat.”

The Digital Natives generally agreed that they were more likely to keep well-designed
mail longer. Those participants that reported they usually throw away most advertising
mail said that the innovative design would cause them to at least read the
advertisement and, in some instances, view it for longer than traditional mail. That said,
Digital Natives in both groups stated they would eventually throw away the mailpieces
that did not contain messages relevant to them.




29
   Hadley Malcolm, “Millennials don’t worry about online privacy,” USA Today, April 21, 2013 (citing “Millennial Rift,”
USC Annenberg Center for the Digital Future & Bovitz, Inc., April 22, 2013).
30
   Ibid.



U.S. Postal Service Office of Inspector General                                                           November 18, 2013
                                                           10
RARC-WP-14-001                                                            Enhancing Mail for Digital Natives



                                                  Some focus group participants said that they
 Figure 2: Some Innovatively Designed
                                                  would be more likely to keep this kind of mail
Mailpieces Shared During Focus Groups
                                                  than regular mail. A few participants even
                                                  said they would share these unique
                                                  mailpieces with friends. One Digital Native
                                                  said he would be more likely to check the
                                                  mail if it contained these types of pieces. A
                                                  few participants said if they kept the
                                                  mailpiece, it would be for the innovative
                                                  features, not the content of the message.

                                            When asked about the sender of innovative
                                            mail, focus group participants’ reactions
                                            were split. Many Digital Natives thought that
                                            advertising pieces that contained innovative
                                            features were more effective than the
                                            traditional pieces they are accustomed to
                                            receiving. They responded that companies
                                            printing innovative pieces would be seen as
                                            “new age,” “progressive,” and “trying
                                            harder.” Some Digital Natives, however,
                                            voiced concerns about the price of these
innovative pieces and questioned whether the expense would really be the best use of a
company’s money. Concerned participants felt that by spending more on mailpieces,
the company was not prioritizing its spending correctly.

Digital Mail
Digital Natives responded well to mailpieces that integrated digital features into physical
mail and appreciated the ability to receive additional information through multiple
channels that interact seamlessly. The focus group moderator gave participants Android
tablets to test the augmented reality features on the mailpieces. The moderator also
demonstrated an advertisement using Near Field Communications (NFC) and explained
a mailpiece that enabled scan-to-buy advertisements. The methodology section of this
paper describes these advertisements in greater detail.

Presented with mailpieces containing digital features, Digital Natives initially responded
very positively. Some Digital Natives agreed that these types of mailpieces were “way
more our speed,” while others said the applications were “really cool.” The ability to
instantly obtain more information about a product through digital features especially
impressed participants in both focus groups.




U.S. Postal Service Office of Inspector General                                         November 18, 2013
                                                  11
RARC-WP-14-001                                                            Enhancing Mail for Digital Natives



Digital Natives noted that catalogs without digital features like augmented reality require
too much “work” to get more information about products. The Digital Natives agreed that
advertisements that include digital features were more informative, efficient, and useful.
 Figure 3: Example of Augmented Reality      They appreciated that the mailpiece
       Application with a Magazine           provided a source for more information or
                                             gave them the ability to purchase
                                             immediately.

                                                  It became clear that Digital Natives expect
                                                  the Internet to hold more options and
                                                  information than print media. Digital Natives
                                                  said they enjoyed the power of deciding
                                                  what advertisements piqued their interest
                                                  enough to get more information about the
                                                  product or company through digital features.
                                                  Digital Natives, for the most part, agreed
                                                  that they already have their phones out
                                                  while looking at physical mail, so scanning
                                                  advertisements to enable digital features
                                                  would be quick and easy.

                                              Some Digital Natives found the NFC-
                                              enabled advertisement to be somewhat
intrusive because it brought up an advertisement without first asking permission of the
device owner. Specifically, they were concerned that NFC-enabled devices would pull
up various unwanted advertisements just because their phone or tablet was near an
advertisement that contained an NFC feature on it. Other Digital Natives disagreed,
pointing out that they were more likely to view the digital element of advertisements
using NFC technology because they did not require the user to download an application
(app). Some focus group participants said that they enjoyed the NFC-enabled
advertisement more because it started playing automatically, rather than the
advertisements that required the user to download an app, like augmented reality and
Quick Response (QR) codes. Many said that downloading an app for a one-time
experience would not be worth the effort. One participant felt that she would download
an app only for “something that’s not a want but more of a need.”

Many Digital Natives agreed the digital advertisements were catchy, but only
advertisements that really interested them would merit the extra time and effort it would
take to get the interactive, digital experience. Digital Natives’ opinions of the different
types of digital experiences varied. Some preferred NFC-enabled, automatic
advertisements, while others preferred advertisements that gave them the choice of
whether to access the interactive feature.




U.S. Postal Service Office of Inspector General                                         November 18, 2013
                                                  12
RARC-WP-14-001                                                         Enhancing Mail for Digital Natives



Mail Must be Relevant, Easy to Use, and Beneficial to Prompt
Recipient Action.
The content of a mailpiece’s message must be relevant to the recipient’s needs in order
for the mailpiece to be effective. Additionally, the effectiveness of a mailpiece innovation
is dependent on its functionality and the user’s ability to easily execute the enhanced
features.

Relevance
Although the Digital Natives agreed that they would notice interactive and well-designed
mail more than traditional mail, if the product or company was not relevant to their
needs or interests, the participants said they would more than likely end up throwing
away the mailpiece. The same went for their likelihood to scan mail with a digitally
interactive feature. One participant said, “I think it’s personal interest. If I’m looking at
stuff sometimes, I’ll scan it, but if I don’t need [it], I’m not going to scan it.”

Other participants emphasized that if they have to download an app to reach the
interactive feature of a mailpiece, they would have to have a strong initial interest in the
product and the added features the app would give them. Novelty might draw Digital
Natives to try out a new technology once, but relevancy may lead them to keep and
share the mailpiece. Digital Natives said that they would likely look at mail with
interactive features as regular junk mail to be tossed, unless it was for a product or
service relevant to them.

Ease of Use
In order for digital innovation on mailpieces to be effective, they must be easy to use.
The Digital Natives in the focus groups gave up quickly on new technology that they did
not know how to use or that did not work well on their first try.

Digital Natives agreed the mailpiece needed to include a clear signal that it contained a
digital feature, or else they would not know the technology was an option. Additionally,
they indicated the need for a mailpiece to prominently feature instructions on enabling
the digital component. When shown black and white instructions in a catalog that
included a digital feature, some Digital Natives said they would have skipped over that
page entirely because it was less visually appealing. Many participants suggested that a
universal symbol, similar to a QR code, would be an effective way to let people know
the advertisement includes digital features.

Even though the Digital Natives initially appreciated the easy access to additional
information that mailpieces with digital features provided, they soon realized that using
this type of technology would require them to download an app. Advertisements from
different companies require users to download separate apps, meaning Digital Natives
would have to download multiple apps to receive the full interactive experience from
multiple mailpieces. The Digital Natives all agreed that a universal app to access the
digital feature would be better than a separate app for each company, as it would
increase their likelihood of actually using digital features. One participant said, “if I


U.S. Postal Service Office of Inspector General                                      November 18, 2013
                                                  13
RARC-WP-14-001                                                         Enhancing Mail for Digital Natives



download an app I’m expecting to use it.” She would not download an app for a one-
time experience. All Digital Natives agreed that the technological features were
interesting, but many of them could not envision using it themselves because
downloading and opening apps takes up too much time.

Digital Natives Responded Well to Physical-Digital Integration.
Digital Natives responded positively to physical mailpieces with an interactive, digital
component. Specifically, they found mailpieces with digital features more informative,
efficient, and useful than mailpieces without them. The Digital Natives liked that the
company recognized that they complete transactions and product research online.
Many participants said that they did most of their shopping online and felt comfortable
completing that type of transaction. This type of multi-channel communication leverages
the specific advantages of each channel to create a seamless user experience.

The print element of the online shopping experience is still important to Digital Natives.
Focus group participants talked about the fact that they valued being able to scan a
catalog that would take them to additional information about a product. Many of the
Digital Natives said they looked forward to receiving catalogs and flipped through them
when they arrived, searching for new products. Some participants mentioned that
although they might find something in a magazine they were interested in purchasing,
they were unlikely to actually go online to find the product to make the purchase.
Scanning a catalog to allow for a direct purchase can make the purchase easier by
taking the user directly to a web page with more information about that specific product,
not the store in general. The digital features on direct mail can help facilitate these multi-
channel benefits and potentially help drive product sales.

Implications for the Postal Service
The Postal Service and its stakeholders could capitalize on Digital Natives’ interest in
innovative mailpieces and parcels to make physical mail more valuable. Parcels make
physical mail more valuable because Digital Natives are more likely to check the mail
when they are anticipating a package. As the value of mail rises due to increased parcel
volume, marketers would likely use physical mail more to communicate their message,
increasing its volume. Digital Natives would value the mail more if the technology
integrated into mailpieces was easier to use, they received more packages, and they
felt the mailpieces they received matched their preferences. The quality of the mailpiece
and any interactive feature it provided was very important to the focus group
participants. They said they become frustrated when mail is not tailored or relevant to
them, but said they would enjoy the ability to receive more information about a product
using a device if they so wished. One way the Postal Service could help mail more
relevant — therefore, more valuable — to Digital Natives could be to create a voluntary
system where customers could indicate their preferences on the types of mail they
would like to receive. The Postal Service could provide this service either electronically
or through a paper form.




U.S. Postal Service Office of Inspector General                                      November 18, 2013
                                                  14
RARC-WP-14-001                                                       Enhancing Mail for Digital Natives



The Postal Service Could Provide a Neutral Platform that Facilitates
Access to New Technologies for Both Mail Senders and Recipients.
Digital Natives showed interest in the use of digital features in mailpieces, but they
reported that these features had to be easy to use and access. Thus, marketers would
benefit from ensuring that any new technology they incorporated into a mailpiece would
be user-friendly. The Postal Service could help facilitate greater technology adoption in
mailpieces — thereby making the mail more valuable and effective — by offering an
open, industry-wide platform that could promote pertinent developments and best
practices that would benefit all stakeholders. For example, the Postal Service could
offer a software development kit and an application
programming interface to help senders more easily              Digital Natives agreed
create applications to interact with physical mail. These      that they were less likely
applications could run off the same software                   to access a digital feature
framework, providing a similar experience to                   if it required them to
                                                               download a separate app
consumers no matter which company they choose to
                                                               for each company.
interact with digitally.

The Postal Service has recognized the need for a single app to access digital features
on mailpieces by working with augmented reality platform Aurasma to develop its own
app. During the Consumer Electronics Show in January 2013, the Postal Service
demonstrated how its app could allow mailpieces to come alive when viewed through
the Aurasma-powered app. The Postal Service announced at that time that the app was
expected to be launched by the end of 2013, but it has not yet been released.

The Postal Service has an incentive to help facilitate the creation of such applications,
as the easier it is for companies to create an online experience that interacts with a
physical advertisement, the more likely the company is to create and promote the new
technology. This platform could allow mail recipients to have one access point to the
physical-digital integration provided by physical mail. Creating a dominant type of
program would make it easier, and more likely, that recipients would take the time to
access the interactive feature. When recipients access more information about a good
or service, the probability of them buying it increases because they are taking the time
to interact with the mailpiece. This benefits mailers and could increase the Postal
Service's mail volume.

Parcels Are the New Mainstay to the Mail, as They Are Now a Primary
Driver of the “Mail Moment.”
Online and mobile purchasing is helping to drive significant growth in parcels, and
Digital Natives recognize the Postal Service as a primary and welcome vehicle for
parcel delivery. The anticipation and excitement created by parcels drives Digital
Natives to check the mail more frequently and helps them create an emotional
connection to the mail. The “Mail Moment” is the daily ritual that consumers devote to
bringing in their mail and discovering what it offers. While in previous generations the
anticipation of receiving a personal note drove the Mail Moment, Digital Natives rely



U.S. Postal Service Office of Inspector General                                    November 18, 2013
                                                  15
RARC-WP-14-001                                                                             Enhancing Mail for Digital Natives



more and more on Internet communications for messages. Digital Natives still enjoy
receiving a personal note, but they rely on digital replacements, like email, more often.

The Mail Moment still exists today, and for Digital Natives, checking the mailbox is in
large part due to the anticipation of receiving a parcel. They look forward to receiving
packages they are expecting, in part, because there is no digital replacement. This
connection to physical mail may not otherwise exist for Digital Natives in the absence of
the chance of receiving a parcel. Parcels are the new mainstay to the mail for this
generation.

The Postal Service has a number of opportunities to drive parcel growth, and the
following are only a small number of them. The Postal Service could continue to help
drive parcel growth by offering anywhere/anytime pickup (in an age of
anywhere/anytime electronic and mobile commerce), giving control to the end-user to
manage the when and where of the delivery process, and perfecting reverse logistics
operations for returns processing. 31

The Postal Service may want to consider carefully the effect of realignments and
consolidations in the processing, transportation, and delivery networks on parcel volume
growth. Parcels are an increasingly important area of competition for the Postal Service.
To compete for Digital Natives’ business, the Postal Service should look beyond
competitive pricing and offer robust services that increase ease of use and the most
efficient end point delivery.

The Postal Service ran a product samples promotion from August 1 to September 30,
2013, which is another valuable way to drive interest in the mail. Marketers may want to
consider the impact sample-based advertising could have on their products’ sales
potential. Given that higher quality paper alone increased consumers’ perceptions of the
companies behind the advertisements, one can imagine what impact product samples
could have. Product samples are unique in that they cannot be replicated by an online
or mobile experience. This may be especially effective with Digital Natives. Delivery of
product samples could enhance anticipation of the mail and drive greater consumer
interest in mail more generally, thereby helping the mail to continue its relevance in the
Digital Age.

The Postal Service Could Conduct Additional Research on Mail’s
Effectiveness and Expand Outreach to Parties Not Traditionally
Considered Postal Stakeholders.
The Postal Service and its stakeholders would benefit from communicating and
demonstrating the effectiveness of physical mail to other entities in the postal value
chain that are not traditionally engaged in postal issues. These groups, like printers and
advertising agencies, help influence the appearance and message of mailpieces.

31
   The Postal Service is currently developing and testing a pilot program called MyPost, which would allow users to
track shipments of all types of mail coming to them. This could create an opportunity for the Postal Service to provide
more delivery options for consumers.



U.S. Postal Service Office of Inspector General                                                          November 18, 2013
                                                          16
RARC-WP-14-001                                                         Enhancing Mail for Digital Natives



Through more research about the effectiveness of multi-channel communication
strategies, advertisers could be shown new, effective ways to reach their audience with
more information than has been possible before.

By producing information on the effectiveness and necessity of the print piece, as well
as the possibilities with physical-digital integration, the Postal Service could cement its
role as a pervasive communication channel, even in an increasingly Digital Age.

The Postal Service currently focuses on providing information to senders, but could do a
better job encouraging printer or creative advertising groups. This is a missed
opportunity, as these groups are also involved in what advertising looks like and over
what medium it is sent. While some research currently exists about the effectiveness of
physical communications, additional research could help strengthen the case and give
advertisers clues as to how to maximize the effectiveness of multi-channel
communications. This information could continue to improve the service provided by
different stakeholders along the postal value chain. For example, printers could also
benefit from this effort, as advertising agencies may increase their orders of premium
prints if they learned about positive consumer reactions to print innovations.

Information sharing among all those in the postal value chain could allow for successful
innovations to be widely used, increasing the worth of the mail to digital-savvy
generations. As mail becomes more valuable to these groups, the amount of mail being
sent to them will likely rise, which aids the Postal Service and other members of the
postal value chain. Ultimately, collecting and sharing information about how the value of
mail can be enhanced could lead to increased volume and use of the mail.

Conclusion
Digital Natives dominate the U.S. population, and the communications industry will soon
have to adapt to their needs and expectations. Although Digital Natives are increasingly
demanding greater speed and convenience in their communications modes, they still
value physical mail. The Postal Service, however, must evolve with Digital Natives’
changing wants and needs in order to stay relevant.

Mail matters to Digital Natives when it is relevant, personalized, and enjoyable; they
expect it to serve as a gateway to their online experience. Digital Natives would likely
respond more positively to messages they receive through multiple channels, as those
messages tend to leverage the best attributes of both the physical and digital modes of
communication. Postal stakeholders who understand these emotional triggers could
better engage Digital Natives in the mail. To do so, they need to understand the
complementary strengths of each medium and enhance the attributes of physical mail
that can create a total positive experience for Digital Natives.

Understanding the needs and expectations of Digital Natives is important not just for the
Postal Service — it is also important to all players within the postal value chain. In a
world that is increasingly digital, the entire postal value chain needs to work together to
better understand the value it provides to the younger generations.

U.S. Postal Service Office of Inspector General                                      November 18, 2013
                                                  17
RARC-WP-14-001                                                          Enhancing Mail for Digital Natives



Appendix A Focus Group Methodology
The Postal Service Office of Inspector General commissioned decision/analysis
partners LLC, a postal consulting firm, to help study Digital Natives' use of the mail. The
objective of the focus groups was to understand (1) Digital Natives' current perceptions
and use of physical mail and (2) how their perceptions and uses of physical mail could
be enhanced by well-designed and digitally interactive mailpieces.

To conduct the work, the contractor screened 20 Digital Natives for participation in one
of two focus groups conducted the evening of July 2, 2013, in Washington, D.C.
Fourteen Digital Natives participated. The groups were composed of participants from
both genders and a variety of races and socioeconomic backgrounds. All participants
except one in each group reported having a smart device like a phone or tablet.

Participants completed an entrance survey before the focus group, the results of which
are included in Appendix B. During each 90-minute focus group, participants were
asked about their current use and perception of the mail. Next, the moderator showed
each focus group two types of innovative mailpieces. The first examples had unique
design elements, such as:

          Bright colors,

          Original shapes and die cuts,

          Pop-out elements, and

          Stickers.

The second set of examples was technology driven. Participants used Android tablets to
test some of the sample mailpieces, including:

          A furniture magazine that engaged an application (app) to display alternate uses
           for furniture, multiple storage options, and videos of products; and

          A food logo that allowed use of an app to bring up recipes featuring the food
           item.

The moderator explained a department store advertisement that, upon being scanned
by an app, would give users a 360-degree view of clothing worn by a model and allow
purchase of the clothing directly from the company's website. The moderator also
demonstrated Near Field Communication (NFC) enabled advertisement for a luxury car.
When placed near an NFC-enabled phone, the app automatically launched an
interactive display that showed the electronic dashboard of the car advertised. This
NFC-enabled advertisement was unique from the other examples because it did not
require the user to download an app in order to activate the digital features.




U.S. Postal Service Office of Inspector General                                       November 18, 2013
                                                  18
     U.S. Postal Service Office of Inspector General




                                                                                                                                                                                        RARC-WP-14-001
                                                       Appendix B Participant Surveys
                                                                              Table 3: Prescreening and Pre–Focus Group Questions for Digital Natives


                                                                                                Q1. Who picks      Q2. How
                                                                                                                                Q3. When you get the mail what is the most important
                                                                                         QR    up the mail most     often is
                                                        Age   Gender   Race   Device                                                                  to you?
                                                                                        Code     often in your     your mail
                                                                                                                                            (multiple answers allowed)
                                                                                                    home?         picked up?

                                                                                                                                  Personal
                                                                                                                                                               Charities or
                                                        17      M       W     Neither   No           You             Daily        cards or      Catalogs
                                                                                                                                                              social issues
                                                                                                                                   notes
                                                                               Smart
                                                        24      F      AA               Yes          You          Once a week       Bills      Advertising
                                                                               Phone
                                                                               Smart
                                                        23      M       W               Yes          You             Daily       Catalogs
                                                                               Phone
                                                                               Smart                                              Personal
                                                                                                                   Few times
19




                                                        16      M      AA     Phone &   Yes          You                          cards or     Advertising     Catalogs
                                                                                                                   per week
                                                                               Tablet                                              notes
                                                                               Smart                               Less often
                                                        22      F      AA     Phone &   No         No one          than once        Bills
                                                                               Tablet                              per month
                                                                               Smart
                                                        23      F      AA               Yes          You             Daily          Bills
                                                                               Phone
                                                                               Smart                                              Personal
                                                        16      F      AA     Phone &   Yes          You             Daily        cards or      Catalogs
                                                                               Tablet                                              notes
                                                                               Smart




                                                                                                                                                                                        Enhancing Mail for Digital Natives
                                                                                                  Parent or                                                    Something      College
                                                        24      M      AA     Phone &   No                           Daily          Bills       Catalogs
                                                                                                  Guardian                                                       else          info
                                                                               Tablet
                                                                               Smart                                              Personal
                                                                                                  Parent or        Few times
                                                        19      M       W     Phone &   Yes                                       cards or         Bills      Advertising
     November 18, 2013




                                                                                                  Guardian         per week
                                                                               Tablet                                              notes
                                                                               Smart                                                           Advertising
                                                        24      M      AA     Phone &   No           You             Daily      Advertising    about local     Catalogs
                                                                               Tablet                                                            events
     U.S. Postal Service Office of Inspector General




                                                                                                                                                                                     RARC-WP-14-001
                                                                                               Q1. Who picks      Q2. How
                                                                                                                              Q3. When you get the mail what is the most important
                                                                                        QR    up the mail most     often is
                                                       Age   Gender   Race   Device                                                                 to you?
                                                                                       Code     often in your     your mail
                                                                                                                                          (multiple answers allowed)
                                                                                                   home?         picked up?

                                                                                                                                Personal
                                                                             Smart
                                                       23      F      AA               No           You            Daily        cards or         Bills      Advertising
                                                                             Phone
                                                                                                                                 notes
                                                                                                                                Personal
                                                                                                 Parent or                                                   Something    College
                                                       17      F       W     Neither   No                          Daily        cards or      Catalogs
                                                                                                 Guardian                                                      else        Info
                                                                                                                                 notes
                                                                              Smart                                             Personal
                                                       22      F      AA     Phone &   No           You            Daily        cards or         Bills       Catalogs
                                                                              Tablet                                             notes
                                                                              Smart
                                                       21      M      AA                N           You            Daily          Bills
                                                                              Phone
20




                                                                                                                                                                                     Enhancing Mail for Digital Natives
     November 18, 2013
     U.S. Postal Service Office of Inspector General




                                                                                                                                                                                             RARC-WP-14-001
                                                                           Table 4: Further Prescreening and Pre–Focus Group Questions for Digital Natives
                                                                                                                                                                               Q7. How
                                                                                                                                                                               affected
                                                                                                                                                                Q6d. What
                                                                                                         Q5. How                                                             would you be
                                                                                        Q4. What                      Q6. What prompts you to look at a piece    prompts
                                                                                                       long do you                                                               if you
                                                                                         do you                                     of mail?                      you to
                                                       Age   Gender   Race    Device                    keep mail                                                              stopped
                                                                                         do with                                                                 look at a
                                                                                                      that you find         (multiple answers allowed)                       receiving the
                                                                                        the mail?                                                                piece of
                                                                                                      interesting?                                                             mail? (10
                                                                                                                                                                   mail?
                                                                                                                                                                              being most
                                                                                                                                                                               affected)

                                                                                        Keep all of   More than a      Visually
                                                       17      M       W      Neither                                                Relevant      Personal     Important         8
                                                                                            it          week          appealing

                                                                                          Keep
                                                                              Smart                   More than a
                                                       24      F      AA                important                      Personal      Important                                    7
                                                                              Phone                     week
                                                                                          docs
21




                                                                                          Keep
                                                                              Smart                   More than a
                                                       23      M       W                important                      Personal                                                   6
                                                                              Phone                     week
                                                                                          docs

                                                                              Smart
                                                                                          Keep
                                                                              Phone                   More than a      Visually
                                                       16      M      AA                important                                    Relevant      Personal     Important         3
                                                                                &                       week          appealing
                                                                                          docs
                                                                              Tablet




                                                                                                                                                                                             Enhancing Mail for Digital Natives
                                                                              Smart
                                                                                          Keep
                                                                              Phone
                                                       22      F      AA                important      Two days       Important                                                   7
                                                                                &
                                                                                          docs
                                                                              Tablet
     November 18, 2013




                                                                              Smart     Keep all of
                                                       23      F      AA                                Forever        Personal                                                   10
                                                                              Phone         it
     U.S. Postal Service Office of Inspector General




                                                                                                                                                                                            RARC-WP-14-001
                                                                                                                                                                              Q7. How
                                                                                                                                                                              affected
                                                                                                                                                               Q6d. What
                                                                                                        Q5. How                                                             would you be
                                                                                      Q4. What                       Q6. What prompts you to look at a piece    prompts
                                                                                                      long do you                                                               if you
                                                                                       do you                                      of mail?                      you to
                                                       Age   Gender   Race   Device                    keep mail                                                              stopped
                                                                                       do with                                                                  look at a
                                                                                                     that you find                                                          receiving the
                                                                                      the mail?                            (multiple answers allowed)           piece of
                                                                                                     interesting?                                                             mail? (10
                                                                                                                                                                  mail?
                                                                                                                                                                             being most
                                                                                                                                                                              affected)

                                                                             Smart
                                                                                      Keep what
                                                                             Phone                   More than a      Visually
                                                       16      F      AA               interests                                    Relevant                                     4
                                                                               &                       week          appealing
                                                                                          you
                                                                             Tablet

                                                                             Smart
                                                                                        Keep         More than 2
                                                                             Phone                                    Visually
                                                       24      M      AA              important       days, less                    Relevant      Personal     Important         10
                                                                               &                                     appealing
22




                                                                                        docs          than a wk
                                                                             Tablet

                                                                             Smart
                                                                                        Keep
                                                                             Phone
                                                       19      M       W              important        Forever        Relevant                                                   4
                                                                               &
                                                                                        docs
                                                                             Tablet

                                                                             Smart
                                                                                        Keep         More than 2
                                                                             Phone
                                                       24      M      AA              important       days, less      Relevant                                                   6
                                                                               &
                                                                                        docs          than a wk




                                                                                                                                                                                            Enhancing Mail for Digital Natives
                                                                             Tablet

                                                                                       Nothing,
                                                                                      it's sitting
     November 18, 2013




                                                                             Smart                   More than a      Visually
                                                       23      F      AA                in a big                                    Relevant      Personal     Important         4
                                                                             Phone                     week          appealing
                                                                                         pile at
                                                                                         home
     U.S. Postal Service Office of Inspector General




                                                                                                                                                                                           RARC-WP-14-001
                                                                                                                                                                             Q7. How
                                                                                                                                                                             affected
                                                                                                                                                              Q6d. What
                                                                                                       Q5. How                                                             would you be
                                                                                       Q4. What                     Q6. What prompts you to look at a piece    prompts
                                                                                                     long do you                                                               if you
                                                                                        do you                                    of mail?                      you to
                                                       Age   Gender   Race   Device                   keep mail                                                              stopped
                                                                                        do with                                                                look at a
                                                                                                    that you find                                                          receiving the
                                                                                       the mail?                          (multiple answers allowed)           piece of
                                                                                                    interesting?                                                             mail? (10
                                                                                                                                                                 mail?
                                                                                                                                                                            being most
                                                                                                                                                                             affected)

                                                                                       Keep what
                                                                                                    More than a
                                                       17      F       W     Neither    interests                    Personal      Important                                    5
                                                                                                      week
                                                                                           you

                                                                             Smart
                                                                                         Keep       More than 2
                                                                             Phone                                   Visually
                                                       22      F      AA               important     days, less                    Relevant      Personal     Important         8
                                                                               &                                    appealing
                                                                                         docs        than a wk
                                                                             Tablet
23




                                                                                         Keep
                                                                             Smart
                                                       21      M      AA               important      One day        Personal                                                   7
                                                                             Phone
                                                                                         docs




                                                                                                                                                                                           Enhancing Mail for Digital Natives
     November 18, 2013
RARC-WP-14-001                                                                        Enhancing Mail for Digital Natives




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                     November 18, 2013
